No, 20-1775

 

 

IN THE
Supreme Court of the United States

STATE OF ARIZONA, et al.,
Petitioners,
v.
CITY AND COUNTY OF SAN FRANCISCO, ef al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF IN OPPOSITION FOR THE STATE OF CALIFORNIA,
DISTRICT OF COLUMBIA, STATE OF Maing, COMMON-
WEALTH OF PENNSYLVANIA, AND STATE OF OREGON

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,051 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 23, 2021.

il

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
